APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:

Appendix C:

Appendix D:
Appendix E:

Appendix F:

23092.3

Court of appeals opinion,
Feb. 10, 2020 ............................................ 1a
Bankruptcy appellate panel order
regarding appellate fees,
July 3, 2018............................................. 10a
Bankruptcy appellate panel opinion
regarding contempt,
Dec. 22, 2017 .......................................... 14a
Bankruptcy court order,
July 5, 2016............................................. 43a
Bankruptcy court order
denying reconsideration,
Sept. 15, 2016 ......................................... 45a
Court of appeals order,
Apr. 27, 2020 .......................................... 47a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 18-60005, 18-60006,
18-60040, 18-60041
In re CHRISTOPHER MICHAEL MARINO;
VALERIE MARGARET MARINO,
Debtors,
------------OCWEN LOAN SERVICING, LLC,
Appellant/Appellee,
v.
CHRISTOPHER MICHAEL MARINO; VALERIE
MARGARET MARINO,
Appellees/Appellants.
Filed: February 10, 2020
Appeal from the United States Bankruptcy Appellate
Panel of the Ninth Circuit
Before J. CLIFFORD WALLACE and MARY H.
MURGUIA, Circuit Judges, and ROBERT S.
LASNIK, * District Judge.

The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.
*

(1a)

2a
OPINION
LASNIK, District Judge:
After the bankruptcy court entered a chapter 7 discharge injunction in June 2013, Debtors, Christopher and
Valerie Marino, continued to receive letters and telephone calls from Ocwen Loan Servicing LLC (“Ocwen”)
about the home they had abandoned to foreclosure before
filing for bankruptcy. Following an evidentiary hearing,
the bankruptcy court found Ocwen in contempt of the discharge injunction and imposed a $119,000 civil contempt
sanction.
Ocwen appeals from that order, as well as from the
bankruptcy court’s order denying its motion for reconsideration. Ocwen also appeals from the Bankruptcy Appellate Panel’s (“BAP”) conclusion that it was “error for the
bankruptcy court to preclude itself from considering an
award of punitive damages” under 11 U.S.C. § 105(a). 1
For their part, the Marinos appeal from the BAP’s denial
of their motion for attorney’s fees incurred on appeal.
We dismiss Ocwen’s appeals for lack of jurisdiction
and affirm the BAP’s denial of the Marinos’ motion for
attorney’s fees.
I.
The Marinos purchased a home in Verdi, California,
with a loan that was later serviced by Ocwen. The Marinos fell behind on their mortgage payments and decided
to leave their home and allow Ocwen to foreclose on it.
Unless specified otherwise, all chapter and section references are to
the Bankruptcy Code, 11 U.S.C. §§ 101–1532, all “Rule” references
are to the Federal Rules of Civil Procedure.

1

3a
The Marinos then filed for chapter 7 bankruptcy and received a discharge injunction a few months later.
Despite the discharge injunction, the Marinos continued to receive letters and telephone calls from Ocwen
about their former home. The Marinos presented evidence at a hearing showing that they had received letters
and calls from Ocwen, causing them severe emotional distress.
The bankruptcy court concluded that Ocwen violated
the discharge injunction and imposed a civil contempt
sanction of $1,000 for every violation, totaling $119,000.
The bankruptcy court also concluded that it lacked the inherent authority to award punitive damages for a violation of a discharge injunction. Finally, the bankruptcy
court denied Ocwen’s motion for reconsideration.
The BAP affirmed the bankruptcy court’s contempt
and reconsideration orders but reversed and remanded
on the issue of punitive damages. The BAP also denied
the Marinos’ motion for appellate attorney’s fees.
Ocwen appeals from the bankruptcy court’s contempt
and reconsideration orders. Ocwen also appeals from the
BAP’s decision reversing the bankruptcy court on the
scope of its inherent authority to award punitive damages
for a discharge injunction violation. The Marinos appeal
the BAP’s decision on attorney’s fees.
II.
A.
Under 28 U.S.C. § 158(d)(1), our jurisdiction is limited
to “decisions, judgments, orders, and decrees that are ‘final’ [for] we have no authority . . . to consider interlocutory orders and decrees.” In re Gugliuzza, 852 F.3d 884,

4a
891 (9th Cir. 2017) (citing Conn. Nat’l Bank v. Germain,
503 U.S. 249, 252 (1992)). Because bankruptcy cases are
often complex and litigated in various discrete proceedings, BAP orders may be immediately appealed only if
they “finally dispose of discrete disputes within the larger
case.” Id. at 892 (quoting Bullard v. Blue Hills Bank, 135
S. Ct. 1686, 1692 (2015)). “Correct delineation of the dimensions of a bankruptcy ‘proceeding’ is a matter of considerable importance” for “[a]n erroneous identification
of an interlocutory as a final decision may yield an appeal
over which the appellate forum lacks jurisdiction.” Ritzen
Grp., Inc. v. Jackson Masonry, LLC, 589 U.S. ____ (slip
op. at 3) (2020). An order in a bankruptcy proceeding is
final and thus appealable if it “alters the status quo and
fixes the rights and obligations of the parties . . . [or] alters the legal relationships among the parties.” In re
Gugliuzza, 852 F.3d at 893 (quoting Bullard, 135 S. Ct. at
1692, 1695).
However, an order from the BAP is not final if it “remands for factual determinations on a central issue[.]” Id.
at 895 (quoting In re Vylene Enters., 968 F.2d 887, 895
(9th Cir. 1992)). We have departed from this rule only
when the BAP remands for “purely mechanical or computational task[s] such that the proceedings on remand
are highly unlikely to generate a new appeal.” In re
Landmark Fence Co., Inc., 801 F.3d 1099, 1103 (9th Cir.
2015) (alteration in original) (quoting In re Saxman, 325
F.3d 1168, 1172 (9th Cir. 2003)). We limit the exception to
our general rule against exercising appellate jurisdiction
when the BAP remands to the bankruptcy court for good
reason. When the BAP “remands a case to the bankruptcy court, ‘the appellate process likely will be much

5a
shorter if we decline jurisdiction and await ultimate review on all the combined issues.’ ” In re Lakeshore Vill.
Resort, Ltd., 81 F.3d 103, 106 (9th Cir. 1996) (quoting In
re Stanton, 766 F.2d 1283, 1287–88 (9th Cir. 1985)).
We apply a four-part test to determine if we have jurisdiction over an appeal from a BAP decision that remands to the bankruptcy court. We consider “(1) the need
to avoid piecemeal litigation; (2) judicial efficiency; (3) the
systemic interest in preserving the bankruptcy court’s
role as the finder of fact; and (4) whether delaying review
would cause either party irreparable harm.” In re Gugliuzza, 852 F.3d at 894 (quoting In re Perl, 811 F.3d 1120,
1126 (9th Cir. 2016)). We conclude that all four factors
compel dismissal of Ocwen’s appeals.
As to the first two factors, dismissal serves judicial efficiency and avoids piecemeal litigation by allowing the
bankruptcy court to make additional findings of fact and
conclusions of law before we exercise our jurisdiction. If
we were to resolve Ocwen’s appeals now, the parties
would almost certainly climb back up the appellate ladder, asking us to consider the bankruptcy court’s decision
on punitive damages. The Supreme Court has discouraged this type of piecemeal litigation for its inefficiency.
See Bullard, 135 S. Ct. at 1693 (explaining that the “rule
of finality” exists to avoid “climb[s] up the appellate ladder and slide[s] down the chute” and the “delays and inefficiencies” that result).
As to the third factor, the BAP’s decision expressly
left open the possibility for the bankruptcy court to engage in additional fact-finding after remand. Although
the BAP did not “hold that the bankruptcy court must
award a fine or punitive damages,” it remanded the case
for the bankruptcy court to “consider whether to do so.”

6a
The BAP explained that the bankruptcy court “might
choose to issue proposed findings and a recommended
judgment on punitive damages to the district court or refer the matter to the district court for criminal contempt
proceedings.” (emphasis added). Dismissal preserves the
bankruptcy court’s fact-finding role where, as here, the
BAP’s decision remands to the bankruptcy court to determine whether punitive damages are appropriate.
Finally, as to the fourth factor, other than protracted
litigation costs, neither party would be irreparably
harmed if we declined jurisdiction over Ocwen’s appeals.
Litigation costs generally do not qualify as irreparable
harm. Cf. In re Excel Innovations, Inc., 502 F.3d 1086,
1099 (9th Cir. 2007).
In short, the BAP remanded to the bankruptcy court
for more factual findings on punitive damages. The bankruptcy court’s decision whether punitive damages are appropriate is not a “ministerial task[.]” In re Gugliuzza,
852 F.3d at 897 (stating that “[a] decision that remands a
case for further fact-finding will rarely have this degree
of finality, unless the remand order is limited to ministerial tasks” (citation omitted)).
In addition, the bankruptcy court’s punitive damages
calculus was part of the same “discrete proceeding” in
which the bankruptcy court imposed sanctions against
Ocwen for violating the discharge injunction. Id. at 899
(quoting Bullard, 135 S. Ct. at 1692). The BAP’s decision
did not “terminate[] a procedural unit separate from the
remaining case” or “conclusively resolve[] the [Marinos’]
entitlement to the requested relief.” Ritzen Grp., Inc.,
589 U.S. at ____ (slip op. at 6). The relevant “procedural
unit” in Ocwen’s appeals is the contempt proceedings, in
which the Marinos sought both monetary sanctions and

7a
punitive damages. The BAP remanded to the bankruptcy
court to assess whether to award the Marinos punitive
damages, relief that the Marinos diligently pursued. This
is therefore not a case in which the BAP’s decision “ended
the [contempt proceeding] adjudication and left nothing
more for the Bankruptcy Court to do in that proceeding.”
Id. at ____ (slip op. at 12). We dismiss Ocwen’s appeals
for lack of appellate jurisdiction.
B.
The Marinos appeal from the BAP’s denial of their
motion for attorney’s fees incurred defending against the
appeal before the BAP. Unlike Ocwen’s appeals, the Marinos’ appeal only raises the frivolousness of Ocwen’s appeal to the BAP, an issue that is both final and discrete.
We have jurisdiction over the Marinos’ appeal and review
it for abuse of discretion. See Shapiro ex rel. Shapiro v.
Paradise Valley Unified Sch. Dist. No. 69, 374 F.3d 857,
861 (9th Cir. 2004) (citing Fischel v. Equitable Life Assurance Soc’y of the U.S., 307 F.3d 997, 1005 (9th Cir.
2002)).
The Marinos point to three sources that they believe
entitle them to attorney’s fees: (1) Federal Rule of Appellate Procedure 38, 2 (2) the attorney’s fees provision in the
deed of trust with Ocwen, and (3) section 105(a) of the
Bankruptcy Code. We address each purported basis for
an award of attorney’s fees in turn.

More precisely, the BAP may award just damages and single or double costs to an appellee as a sanction for a frivolous appeal from a
bankruptcy court’s judgment under Federal Rule of Bankruptcy Procedure 8020(a). The standard applied is the same as under Federal
Rule of Appellate Procedure 38.

2

8a
First, under Federal Rule of Appellate Procedure 38,
we may award damages and single or double costs to an
appellee if we determine that an appeal is frivolous. See
Fed. R. App. P. 38. “An appeal is frivolous if the results
are obvious, or the arguments of error are wholly without
merit.” Maisano v. United States, 908 F.2d 408, 411 (9th
Cir. 1990) (per curiam) (citing Wilcox v. C.I.R., 848 F.2d
1007, 1009 (9th Cir. 1988)). The BAP did not clearly err in
finding that the appeal was not frivolous and did not
abuse its discretion by declining to sanction Ocwen under
Rule 38. The Marinos are not entitled to attorney’s fees
under Rule 38.
Second, the attorney’s fees provision in the Marino’s
deed of trust with Ocwen only allows Ocwen to receive attorney’s fees for “a legal proceeding that might significantly affect [its] interest in the Property and/or rights
under [the deed],” including bankruptcy. That provision
is reciprocal pursuant to California Civil Code Section
1717(a) when either party seeks to enforce or avoid enforcement of the deed. See In re Penrod, 802 F.3d 1084,
1088 (9th Cir. 2015) (citations omitted).
The BAP did not err in concluding that the deed of
trust did not entitle the Marinos to appellate attorney’s
fees. The Marinos seek to enforce the discharge injunction, not the deed of trust. Accordingly, we will not award
fees under the deed of trust.
Third, and finally, the Marinos argue that they should
be awarded attorney’s fees under section 105(a) of the
Bankruptcy Code. But that would require us to overturn
our decision, In re Del Mission Ltd., 98 F.3d 1147 (9th
Cir. 1996), in which we held that section 105(a) does not
authorize an award of attorney’s fees. See id. at 1153–54.
We cannot do so. See United States v. Belgarde, 300 F.3d

9a
1177, 1181 (9th Cir. 2002) (“[A] panel not sitting en banc
has no authority to overturn Ninth Circuit precedent[.]”).
The Marinos are not entitled to appellate attorney’s fees
under section 105(a).
III.
We dismiss Ocwen’s appeals for lack of appellate jurisdiction. 3 However, we have jurisdiction over the Marinos’ appeal and affirm the BAP’s conclusion that they
were not entitled to attorney’s fees for their appeal to the
BAP.
AFFIRMED IN PART, DISMISSED FOR LACK
OF JURISDICTION IN PART.

3
The Marinos filed motions to strike and supplements to these motions in each of Ocwen’s pending appeals. Because we dismiss
Ocwen’s appeals for lack of jurisdiction, we decline to reach the Marinos’ motions to strike and deny them without prejudice.

10a
APPENDIX B
UNITED STATES BANKRUPTCY APPELLATE
PANEL OF THE NINTH CIRCUIT
BAP No. NV-16-1229-FLTi
BAP No. NV-16-1238-FLTi
(Cross-Appeals)
In re: CHRISTOPHER MICHAEL MARINO and
VALERIE MARGARET MARINO,
Debtors.
------------OCWEN LOAN SERVICING, LLC,
Appellant/Cross-Appellee,
v.
CHRISTOPHER MICHAEL MARINO; VALERIE
MARGARET MARINO,
Appellees/Cross-Appellants.
Filed: July 3, 2018
ORDER
Before FARIS, LAFFERTY, and TIGHE, 1 Bankruptcy
Judges.

1
The Honorable Maureen A. Tighe, U.S. Bankruptcy Judge for the
Central District of California, sitting by designation.

11a
The Panel received and considered the Marinos’ motion for an award of appellate attorney’s fees and costs, 2
the opposition filed by Ocwen Loan Servicing, LLC
(Ocwen), and the Marinos’ reply thereto.
The Panel’s decision in these cross-appeals is currently on appeal to the Ninth Circuit Court of Appeals
(No. 18-60005). The pendency of the Circuit appeal is no
impediment to a ruling on the fee request. See Moore v.
Permanente Med. Grp., Inc., 981 F.2d 443, 445 (9th Cir.
1992); Masalosalo by Masalosalo v. Stonewall Ins. Co.,
718 F.2d 955, 957 (9th Cir. 1983) (“The district court retained the power to award attorneys’ fees after the notice
of appeal from the decision on the merits had been
filed.”).
The Marinos seek attorney’s fees of $16,950 under
three theories: 1) that Ocwen’s appeal was frivolous in
whole or in part; 2) that attorney’s fees are due under the
terms of the loan and deed of trust pursuant to California
Civil Code § 1717; and 3) that appellate attorney’s fees
should be awarded under 11 U.S.C. § 105 to avoid diluting the bankruptcy court’s award—the purpose of which
was to make the Marinos whole from the damage caused
by Ocwen’s violations of the discharge injunction.
Frivolous
Federal Rule of Bankruptcy Procedure 8020 allows
the Panel to award attorney’s fees as damages for frivolous appeals. See First Fed. Bank of Cal. v. Weinstein (In
2
Both sides agree that costs of $322.10 are payable by Ocwen Loan
Servicing, LLC, to the Marinos as the prevailing parties under Federal Rule of Bankruptcy Procedure 8021(a)(4). Costs are taxed at the
bankruptcy court.

12a
re Weinstein), 227 B.R. 284, 297 (9th Cir. BAP 1998). “An
appeal is frivolous if the results are obvious, or the arguments of error are wholly without merit.” Maisano v.
United States, 908 F.2d 408, 411 (9th Cir. 1990).
While ultimately unpersuasive, the Panel does not
find Ocwen’s appeal was so wholly without merit as to be
frivolous.
California Civil Code § 1717
One of the three conditions for reciprocal attorney’s
fees under California Civil Code § 1717 outlined in Bos v.
Bd. of Trustees, 818 F.3d 486, 489 (9th Cir. 2016), requires
that the underlying action be “on the contract.” In determining whether the discharge injunction had been violated and the damages for that contempt, the terms of
the loan and the deed of trust were collateral to the matter rather than an integral part. See Barrientos v. 18011825 Morton LLC, 583 F.3d 1197, 1216 (9th Cir. 2009).
Therefore, the Marinos cannot meet an essential condition for obtaining attorney’s fees under California Civil
Code § 1717.
11 U.S.C. § 105
Unlike 11 U.S.C. § 362(k), the discharge injunction
does not contain a fee-shifting provision. The Circuit has
clearly said that discretionary appellate attorney’s fees
may not be awarded under 11 U.S.C. § 105 and must be
awarded under the relevant rule. In re Del Mission Ltd.,
98 F.3d 1147, 1154 & n.7 (9th Cir. 1996); see also Higgins
v. Vortex Fishing Sys., Inc., 379 F.3d 701, 709 n.3 (9th Cir.
2004). Del Mission is the controlling authority on this issue in this Circuit and we will follow it. Hart v. Massanari,

13a
266 F.3d 1155, 1171 (9th Cir. 2001) (binding circuit precedent can only be overturned by statute, the Circuit ruling
en banc, or the Supreme Court).
Therefore, because the Panel does not find Ocwen’s
appeal was frivolous, because the Marinos cannot meet
one of the essential conditions of obtaining attorney’s
fees under California Civil Code § 1717, and because discretionary appellate attorney’s fees may not be awarded
under 11 U.S.C. § 105, the Marinos’ motion for attorney’s
fees on appeal is ORDERED DENIED.

14a
APPENDIX C
UNITED STATES BANKRUPTCY APPELLATE
PANEL OF THE NINTH CIRCUIT
BAP No. NV-16-1229-FLTi
BAP No. NV-16-1238-FLTi
(Cross-Appeals)
In re: CHRISTOPHER MICHAEL MARINO and
VALERIE MARGARET MARINO,
Debtors.
------------OCWEN LOAN SERVICING, LLC,
Appellant/Cross-Appellee,
v.
CHRISTOPHER MICHAEL MARINO; VALERIE
MARGARET MARINO,
Appellees/Cross-Appellants.
Filed: December 22, 2017
OPINION
Before FARIS, LAFFERTY, and TIGHE, * Bankruptcy
Judges.
FARIS, Bankruptcy Judge:
*
The Honorable Maureen A. Tighe, U.S. Bankruptcy Judge for the
Central District of California, sitting by designation.

15a
INTRODUCTION
Chapter 7 1 debtors Christopher Michael Marino and
Valerie Margaret Marino sought sanctions against creditor Ocwen Loan Servicing, LLC (“Ocwen”) for its violation of the discharge injunction. The bankruptcy court
held a trial and awarded the Marinos $119,000—one thousand dollars for each improper contact.
On appeal, Ocwen argues that the bankruptcy court
erred because its correspondence with the Marinos was
in compliance with state or federal law. It also contends
that the court improperly considered telephone calls,
which were not the subject of the motion and not supported by evidence, and that there was no evidence of injury to the Marinos. We discern no error and AFFIRM.
The Marinos cross-appeal, correctly arguing that the
bankruptcy court erred in holding that it lacked the authority to award punitive damages. On this point, we
VACATE and REMAND so the bankruptcy court can
consider whether it would be appropriate to (a) enter a
final judgment for “relatively mild noncompensatory
fines,” (b) issue, for the district court’s consideration, proposed findings and a recommended judgment for punitive
damages, or (c) refer the issue of contempt to the district
court.

Unless specified otherwise, all chapter and section references are to
the Bankruptcy Code, 11 U.S.C. §§ 101–1532, all “Rule” references
are to the Federal Rules of Bankruptcy Procedure, and all “Civil
Rule” references are to the Federal Rules of Civil Procedure.

1

16a
FACTUAL BACKGROUND
A. The Marinos’ chapter 7 petition
The Marinos filed a chapter 7 bankruptcy petition in
March 2013 in the United States Bankruptcy Court for
the District of Nevada. They scheduled real property located in Verdi, California (the “Property”) and noted,
“DEBTOR TO SURRENDER.” 2 GMAC Mortgage held
a secured claim arising from a second mortgage on the
Property.
The Marinos received their discharge on June 18,
2013. The bankruptcy court subsequently granted
Deutsche Bank National Trust Company, as Trustee for
GMACM Mortgage Loan Trust 2005–AR6 (“Deutsche
Bank”) relief from the automatic stay. The court closed
the case on September 23, 2013.
B. Written correspondence and telephone calls
from Ocwen
Following the Marinos’ discharge, Ocwen, as the servicer for Deutsche Bank, began sending the Marinos
mailed correspondence in June 2013 and continued to do
so through April 2015. The letters included account statements, notices regarding force-placed insurance, escrow
statements, and other matters.
Some of the items of correspondence contained disclaimers that were located at the bottom of a page or end
of the letter in small font. A typical disclaimer read: “If
you have filed for bankruptcy and your case is still active
2
Mr. Marino later attested that they had moved out of the Property
in late 2011. When they filed their bankruptcy petition in 2013, the
Marinos were living in Reno, Nevada. They have since moved to Auburn, California.

17a
and/or if you received a discharge, please be advised that
this notice is for information purposes only and is not an
attempt to collect a pre-petition or discharged debt.” Often, the disclaimers were preceded by demands for payment by a certain date or information about the amount
that “you must pay” in a much more conspicuous font.
Ocwen also called the Marinos numerous times postdischarge to request payment on their mortgage loan.
C. The motion for contempt
In November 2015, the Marinos filed a motion to reopen their case and to hold Ocwen in contempt for its alleged violation of the discharge injunction (“Motion for
Contempt”). They argued that Ocwen knowingly and willfully violated the discharge injunction by sending the
written correspondence after the Marinos’ discharge.
They identified twenty-two instances of allegedly improper correspondence 3 whereby Ocwen sought to collect
from the Marinos personally.
In opposition to the Motion for Contempt, Ocwen argued that sanctions were not warranted because the letters were not meant to collect any debt against the Marinos personally and complied with federal and state law.
It said that fourteen of the twenty-two letters contained
disclaimer language stating that the letters were intended for informational purposes only, not to collect any
debt. It argued that billing statements did not violate the
discharge injunction under California law because they
sought only voluntary payments. It contended that the

In their moving papers, the Marinos only mentioned the written correspondence, not telephone calls.

3

18a
remaining correspondence concerned force-placed insurance, escrow information, or debt validation, not collection of a debt.
D. Evidentiary hearing
The bankruptcy court reopened the case and held an
evidentiary hearing on the Motion for Contempt. At the
outset, and by agreement of the parties, the court found
“that Ocwen was aware of the bankruptcy, was aware of
the discharge, got stay relief, and sent the various letters.” The only remaining issues were Ocwen’s intent and
damages.
Mr. Marino testified that the Property was their
“dream house,” but they faced financial difficulty starting
in 2010. They unsuccessfully tried to work with GMAC
and Ocwen to modify their mortgage payments, but eventually moved out in 2011.
After they filed for chapter 7 bankruptcy and received
their discharge in mid–2013, the Marinos began to receive
letters from Ocwen “stating that there was money due.”
The correspondence included account statements with attached payment stubs and demands for payment. Mr.
Marino testified that the payment stubs indicated that he
had to remit payment on the discharged debt, that he was
responsible for the interest payments, and that payments
were due by the stated dates. Ocwen also sent notices of
force-placed insurance, which made Mr. Marino think
that he had to pay for the insurance on the Property, even
though they had surrendered and vacated it.
Mr. Marino said that the notices from Ocwen took a
toll on his marriage and caused him to fight with his wife.
He said that he suffered from anxiety attacks and felt humiliated, tormented, and harassed. He testified that the

19a
stress eventually made them contemplate divorce, although they managed to preserve their marriage.
Mrs. Marino testified that the letters and calls from
Ocwen caused distress to the point that she and her husband considered divorce. She stated that she began having severe stomach pains when they tried to modify the
mortgage loan; those pains disappeared when they filed
for bankruptcy, but reemerged when they began receiving calls post-discharge. In June 2014, she noted in writing that Ocwen was “calling me three to five times a day”
for approximately a year. At trial, she did not provide an
exact number of calls that she received, but testified:
Q Okay. I don’t want to go—it sounds like you got
anywhere from 60 to 100 calls. Does that sound—
A It was a lot of calls, yes.
She also stated, “I probably answered maybe a handful of
phone calls, probably maybe—it’s hard to think of a number in that time. I mean, 20, I don’t know. It seems to me
that after a while, I was just—I couldn’t take it anymore.”
A friend of the Marinos, Bernadette O’Kane, testified
about her observations of the Marinos during their financial distress. Ms. O’Kane stated that Mrs. Marino became
sad and upset due to dealing with creditors, started suffering stomach pains, and told Ms. O’Kane that her marital relationship had become strained. Ms. O’Kane said
that Mr. Marino was previously fun-loving but became
agitated and angry.
Ms. O’Kane said that, following the discharge, the Marinos were not able to move on with their lives, because
“the calls [from creditors] did not stop.” She said that the

20a
calls made Mrs. Marino cry; when Ms. O’Kane on occasion picked up such calls, the caller would assume that she
was Mrs. Marino and repeatedly ask for payment.
Sony Prudent, a senior loan analyst for Ocwen, testified as to Ocwen’s loan servicing procedure. He stated
that Ocwen keeps a comment log of all contacts with a
borrower and that Owen might still send notices post-discharge pursuant to federal or state regulation, but that
there would be a bankruptcy disclaimer stating that the
letter was not an attempt to collect a debt “if you’ve been
discharged or in active bankruptcy.”
Mr. Prudent stated that he reviewed the Marinos’ file
before testifying, including the transaction history and
comment logs. He testified that the comment logs reflect
that Ocwen called the Marinos post-discharge but that it
did not make any calls to the Marinos after the Property
was foreclosed (approximately two years after the court
granted Ocwen stay relief).
The court repeatedly questioned Mr. Prudent as to
why post-discharge letters might still say, “you must
pay.” Mr. Prudent had no direct answer but stated,
“[b]est answer, Your Honor, is it would be a generic letter.” He later said, “[i]t is an internal policy, Your Honor.”
He also admitted that “[m]ost of [the letters] are generated by our system” and were never reviewed by a human
being.
The bankruptcy court ordered additional briefing regarding the correspondence, asking Ocwen to cite the
specific statute or regulation authorizing each document.
Ocwen cited the applicable regulatory or statutory basis
that allegedly applied to some of its correspondence: 12

21a
C.F.R. § 1024.37(c) (required notice of force-placed insurance), 4 12 U.S.C. §§ 2605 and 2609 (required notice of escrow account balance), 5 15 U.S.C. § 1692g (required notice of debt validation information), 6 and California Civil
4

Before charging for force-placed insurance, a servicer must:
(i) Deliver to a borrower or place in the mail a written notice
containing the information required by paragraph (c)(2) of
this section at least 45 days before a servicer assesses on a
borrower such charge or fee;
(ii) Deliver to the borrower or place in the mail a written notice in accordance with paragraph (d)(1) of this section . . . .

5

12 U.S.C. § 2609(b) states:
Notification of shortage in escrow account. If the terms of
any federally related mortgage loan require the borrower to
make payments to the servicer . . . of the loan for deposit into
an escrow account for the purpose of assuring payment of
taxes, insurance premiums, and other charges with respect
to the property, the servicer shall notify the borrower not less
than annually of any shortage of funds in the escrow account.

6

A debt collector shall send the consumer a written notice stating:
(1) the amount of the debt;
(2) the name of the creditor to whom the debt is owed;
(3) a statement that unless the consumer, within thirty days
after receipt of the notice, disputes the validity of the debt, or
any portion thereof, the debt will be assumed to be valid by
the debt collector;
(4) a statement that if the consumer notifies the debt collector
in writing within the thirty-day period that the debt, or any
portion thereof, is disputed, the debt collector will obtain verification of the debt or a copy of a judgment against the consumer and a copy of such verification or judgment will be
mailed to the consumer by the debt collector; and
(5) a statement that, upon the consumer’s written request
within the thirty-day period, the debt collector will provide the

22a
Code §§ 2924(a)(1)(A) (required notice of default), 7 2923.5
(required contact prior to notice of default), 8 and 2924.9
(required contact post-default). 9

consumer with the name and address of the original creditor,
if different from the current creditor.
A mortgagee shall file a notice of default that includes the following
information:

7

(A) A statement identifying the mortgage or deed of trust by
stating the name or names of the trustor or trustors and giving the book and page, or instrument number, if applicable,
where the mortgage or deed of trust is recorded or a description of the mortgaged or trust property.
(B) A statement that a breach of the obligation for which the
mortgage or transfer in trust is security has occurred.
(C) A statement setting forth the nature of each breach actually known to the beneficiary and of his or her election to sell
or cause to be sold the property to satisfy that obligation and
any other obligation secured by the deed of trust or mortgage
that is in default.
“A mortgage servicer shall contact the borrower in person or by telephone” prior to recording a notice of default or, if not possible, it
must send written correspondence.

8

A mortgage servicer that offers foreclosure prevention alternatives
shall send a written communication to the borrower that includes:

9

(1) That the borrower may be evaluated for a foreclosure prevention alternative or, if applicable, foreclosure prevention
alternatives.
(2) Whether an application is required to be submitted by the
borrower in order to be considered for a foreclosure prevention alternative.
(3) The means and process by which a borrower may obtain
an application for a foreclosure prevention alternative.

23a
On June 20, 2016, the bankruptcy court announced its
ruling in favor of the Marinos. The court rejected Ocwen’s
defense that the correspondence was authorized by state
or federal law, stating that, “I think if all they sent was
what was required by the notice [sic], they would be fine.
But in each of those cases, they included additional language, which indicated that they were trying to collect
money from the debtor.”
The bankruptcy court held that the letters and phone
calls indicated that Ocwen was trying to get the Marinos
to make payments on their mortgage loan: “Ocwen could
not have been doing anything but trying to get the debtor
to give them some more money, either for insurance or
agree to be responsible for the house that was vacant,
even after they had . . . received stay relief.” The court
said that Ocwen purposefully waited two years to foreclose on the Property, “hoping that if they sent enough
letters and gave enough calls, that the debtor would ultimately pay them some money for something.”
The court found the disclaimer language ineffective.
It said that the disclaimers stated, “if you have filed for
bankruptcy” and “if you have received a discharge,” even
though Ocwen knew that the Marinos had filed for bankruptcy and received a discharge. It said that creditors
that know that a debtor has filed for bankruptcy, received
a discharge, and surrendered their home do not have “the
right to have their computer gen out [sic] these various
letters, which do comply, at least in some of the provisions, with the various notification statutes, but all of
which include language which is not included in those
statutes, which, to varying degrees of urgency, want the
debtor to undertake a new obligation or pay them
money.”

24a
The court also found that Ocwen had called approximately a hundred times following the discharge to ask the
Marinos to pay the discharged debt. It noted that Ocwen
failed to rebut the Marinos’ testimony and failed to produce any records or evidence to the contrary.
The bankruptcy court awarded the Marinos damages
for emotional distress, actual damages, and attorneys’
fees and costs. It stated that the Marinos had established
that they had suffered emotional distress as a result of
Ocwen’s harassing calls and letters. The court found that
Ocwen had sent nineteen offending letters and made one
hundred phone calls, and it awarded $1,000 per letter and
call as emotional distress damages. The court entered an
order (“Sanctions Order”) awarding the Marinos
$119,000 in emotional distress damages.
Regarding an award of punitive damages, the court
stated: “The issue of damages, I—as I understand the law
of the Ninth Circuit, I do not have authority to impose
punitive damages. If I did, I probably would, but I don’t.”
Ocwen timely appealed the Sanctions Order.
E. The motion for reconsideration
Ocwen filed a motion for reconsideration of the Sanctions Order (“Motion for Reconsideration”) under Civil
Rule 59(e), made applicable in bankruptcy through Rule
9023. It argued that it made far fewer calls to the Marinos
than the one hundred calls that the court had found and
that it did not provide any rebuttal evidence at trial because the Marinos did not raise the issue of telephone
calls until late in the proceedings.

25a
Ocwen contended that it had “newly discovered” evidence in the form of Ocwen’s call logs. It provided the affidavit of a loan analyst for Ocwen who testified that
Ocwen made thirty-five calls to the Marinos post-discharge.
The bankruptcy court denied the Motion for Reconsideration by form order (“Reconsideration Order”) without any detailed reasoning. Although the court apparently held a hearing on the Motion for Reconsideration, a
transcript of the hearing is not in the record on appeal.
Ocwen amended its notice of appeal to include the Reconsideration Order.
JURISDICTION
The bankruptcy court had jurisdiction pursuant to 28
U.S.C. §§ 1334 and 157(b)(1). We have jurisdiction under
28 U.S.C. § 158.
ISSUES
(1) Whether the bankruptcy court erred in awarding
the Marinos $119,000 for violations of the discharge injunction.
(2) Whether the bankruptcy court erred in holding
that it lacked the authority to award punitive damages.
STANDARDS OF REVIEW
We review de novo questions of law, including
whether the bankruptcy court applied the correct legal
standard. See Drummond v. Welsh (In re Welsh), 465
B.R. 843, 847 (9th Cir. BAP 2012), aff’d, 711 F.3d 1120
(9th Cir. 2013). De novo review requires that we consider

26a
a matter anew, as if no decision had been rendered previously. United States v. Silverman, 861 F.2d 571, 576 (9th
Cir. 1988).
The bankruptcy court’s finding of a willful violation of
§ 524 is a factual finding reviewed for clear error. Emmert v. Taggart (In re Taggart), 548 B.R. 275, 286 (9th
Cir. BAP 2016). A finding of fact is clearly erroneous if it
is illogical, implausible, or without support in the record.
Retz v. Samson (In re Retz), 606 F.3d 1189, 1196 (9th Cir.
2010). The bankruptcy court’s choice among multiple
plausible views of the evidence cannot be clear error.
United States v. Elliott, 322 F.3d 710, 715 (9th Cir. 2003).
We review for abuse of discretion the bankruptcy
court’s decision to impose sanctions for contempt. Knupfer v. Lindblade (In re Dyer), 322 F.3d 1178, 1191 (9th
Cir. 2003); Nash v. Clark Cty. Dist. Atty’s Office (In re
Nash), 464 B.R. 874, 878 (9th Cir. BAP 2012). Similarly,
we review the bankruptcy court’s denial of a motion for
reconsideration for abuse of discretion. Cruz v. Stein
Strauss Tr. # 1361, PDQ Invs., LLC (In re Cruz), 516
B.R. 594, 601 (9th Cir. BAP 2014) (citing Tracht Gut, LLC
v. Cty. of L.A. Treasurer & Tax Collector (In re Tracht
Gut, LLC), 503 B.R. 804, 810 (9th Cir. BAP 2014)). To determine whether the bankruptcy court has abused its discretion, we conduct a two-step inquiry: (1) we review de
novo whether the bankruptcy court “identified the correct legal rule to apply to the relief requested” and (2) if
it did, whether the bankruptcy court’s application of the
legal standard was illogical, implausible, or without support in inferences that may be drawn from the facts in the
record. United States v. Hinkson, 585 F.3d 1247, 1262–63
& n.21 (9th Cir. 2009) (en banc).

27a
DISCUSSION
A. Ocwen’s appeal
1. The bankruptcy court may sanction a creditor
that knowingly and willfully violates the discharge injunction.
Section 727(a) provides that, absent certain exceptions, “[t]he [bankruptcy] court shall grant the debtor a
discharge.” The discharge order “discharges the debtor
from all debts that arose before the date of the [bankruptcy filing].” § 727(b). More specifically, a discharge
“operates as an injunction against the commencement or
continuation of an action, the employment of process, or
an act, to collect, recover or offset any such debt as a personal liability of the debtor, whether or not discharge of
such debt is waived[.]” § 524(a)(2).
“A party who knowingly violates the discharge injunction under § 524(a)(2) can be held in contempt under §
105(a).” In re Taggart, 548 B.R. at 286. The Ninth Circuit
follows a two-part test to determine whether the contemnor knowingly and willfully committed a violation of the
discharge injunction: “the movant must prove that the
creditor (1) knew the discharge injunction was applicable
and (2) intended the actions which violated the injunction.” Zilog, Inc. v. Corning (In re Zilog, Inc.), 450 F.3d
996, 1007 (9th Cir. 2006) (quoting Renwick v. Bennett (In
re Bennett), 298 F.3d 1059, 1069 (9th Cir. 2002)).
First, the movant must prove that the contemnor
knew that the discharge injunction was applicable to his
claim:

28a
[T]he Ninth Circuit has crafted a strict standard
for the actual knowledge requirement in the context of contempt before a finding of willfulness can
be made. This standard requires evidence showing
the alleged contemnor was aware of the discharge
injunction and aware that it applied to his or her
claim. Whether a party is aware that the discharge
injunction is applicable to his or her claim is a factbased inquiry which implicates a party’s subjective
belief, even an unreasonable one.
In re Taggart, 548 B.R. at 288.
Second, the contemnor must have intended the action
that violated the injunction. “The focus is on whether the
creditor’s conduct violated the injunction and whether
that conduct was intentional; it does not require a specific
intent to violate the injunction.” Desert Pine Villas Homeowners Ass’n v. Kabiling (In re Kabiling), 551 B.R. 440,
445 (9th Cir. BAP 2016). We have stated:
the analysis concerning a “willful” violation of the
discharge injunction is the same as a finding of willfulness in connection with violation of the automatic
stay under § 365(k). In connection with the second
prong’s intent requirement, we have previously observed that “the bankruptcy court’s focus is not on
the offending party’s subjective beliefs or intent,
but on whether the party’s conduct in fact complied
with the order at issue.”
In re Taggart, 548 B.R. at 288 (quoting Rosales v. Wallace
(In re Wallace), BAP No. NV–11–1681–KiPaD, 2012 WL
2401871, at *5 (9th Cir. BAP June 26, 2012)).
“The standard for finding a party in civil contempt is
well settled: The moving party has the burden of showing

29a
by clear and convincing evidence that the contemnors violated a specific and definite order of the court. The burden then shifts to the contemnors to demonstrate why
they were unable to comply.” Id. at 286 (quoting In re
Bennett, 298 F.3d at 1069). “[E]ach prong of the Ninth
Circuit’s two-part test for a finding of contempt in the
context of a discharge violation requires a different analysis, and distinct, clear, and convincing evidence supporting that analysis, before a finding of willfulness can be
made. This is consistent with the Ninth Circuit’s reluctance to hold an unwitting creditor in contempt.” Id. at
288 (citation and internal quotation marks omitted).
2. The bankruptcy court did not err in finding that
Ocwen’s communication with the Marinos
knowingly and willfully violated the discharge
injunction.
In the present case, there is no dispute that Ocwen
knew that the discharge injunction was applicable to its
claim and that it intentionally sent the letters and placed
the phone calls. Rather, Ocwen argues that its contacts
with the Marinos did not violate the discharge injunction.
We hold that both the written correspondence and the
telephone calls were knowing and willful violations.
a. The bankruptcy court properly found that the
written correspondence violated the discharge
injunction.
The discharge has long been an important feature of
American bankruptcy law. Over eighty years ago, the Supreme Court described its purpose and importance:
One of the primary purposes of the Bankruptcy Act
is to relieve the honest debtor from the weight of
oppressive indebtedness, and permit him to start

30a
afresh free from the obligations and responsibilities
consequent upon business misfortunes. This purpose of the act has been again and again emphasized by the courts as being of public as well as private interest, in that it gives to the honest but unfortunate debtor who surrenders for distribution
the property which he owns at the time of bankruptcy, a new opportunity in life and a clear field for
future effort, unhampered by the pressure and discouragement of pre-existing debt. The various provisions of the Bankruptcy Act were adopted in the
light of that view and are to be construed when reasonably possible in harmony with it so as to effectuate the general purpose and policy of the act.
Local Loan Co. v. Hunt, 292 U.S. 234, 244–45 (1934) (citations and internal quotation marks omitted).
The discharge is automatic and self-effectuating.
Creditors must obey it, even if debtors do not assert it.
Pavelich v. McCormick, Barstow, Sheppard, Wayte &
Carruth LLP (In re Pavelich), 229 B.R. 777, 781–82 (9th
Cir. BAP 1999).
The discharge prohibits not just litigation, but also informal collection activities, such as dunning notices and
telephone calls. See In re Feldmeier, 335 B.R. 807, 813
(Bankr. D. Or. 2005) (“Among the collection activity prohibited by the discharge injunction are ‘telephone calls,
letters, and personal contacts.’” (citation omitted)).
The discharge has one important limit: it bars only efforts to collect debts “as a personal liability of the debtor.”
§ 524(a)(2). This means that secured creditors can foreclose their liens after the discharge is entered. Johnson v.
Home State Bank, 501 U.S. 78, 83 (1991) (explaining that

31a
a discharge extinguishes only the personal liability of the
debtor, and that a creditor’s right to foreclose on a mortgage securing the debt survives or passes through the
bankruptcy).
This creates some tension. While the discharge generally prohibits creditors from communicating with discharged debtors in an effort to extract payment, lienholders usually must communicate with debtors in order to
enforce their liens. For example, a foreclosure of a mortgage without notice to the mortgagor would likely be invalid even if the mortgagor were not personally liable for
the mortgage debt.
The way to reconcile this tension is to hold that a
lienholder may communicate with a discharged debtor
only to the extent necessary to preserve or enforce its lien
rights, and may not attempt to induce the debtor to pay
the debt. As we have held, “the creditor may not use a
contact to ‘coerce’ or ‘harass’ the debtor.” In re Nash, 464
B.R. at 881; see United States v. Holmes (In re Holmes),
BAP No. CC-94-2001-HMV, 76 A.F.T.R.2d 95-7925, 1995
WL 800102 (9th Cir. BAP 1995) (“A secured creditor cannot, under the guise of enforcing an unavoided lien, attempt to coerce the debtor into paying a discharged
debt. . . . Even if a creditor threatens only to enforce its
surviving lien, that threat will violate the discharge injunction if the evidence shows that the threat is really an
effort to coerce payment of the underlying discharged
debt.” (citations omitted)).
We agree with the bankruptcy court that Ocwen’s
communications went far beyond what was necessary to
protect or enforce Ocwen’s lien rights and that they also
were meant to induce the Marinos to make payments

32a
post-discharge. The notices and statements gave the impression that the Marinos were still liable for the mortgage payments, taxes, and force-placed insurance premiums. Even if some of the notices may not have violated
the discharge injunction, the bankruptcy court correctly
noted that the cumulative effect of all of the letters demanding money created the perception that the Marinos
needed to pay Ocwen. See In re Nordlund, 494 B.R. 507,
519 (Bankr. E.D. Cal. 2011) (“Even though some of [the
bank’s] written communications to the debtors seem innocuous, when [the bank’s] 24 written communications
over a 10–month period are considered in context and as
a whole, a more disturbing picture is painted. Even if each
letter from [the bank] had acknowledged the debtors’ discharge and stated that [the bank] would take no action
against the debtors personally to collect its three home
loans, the sheer volume and repetitiveness of [the bank’s]
letters communicated just the opposite.”). Therefore, the
letters violated the discharge injunction.
Ocwen argues that the disclaimer language contained
in some of the notices protects it from liability. We disagree.
First, Ocwen does not attempt to explain the fact that,
of the twenty-two letters it sent to the Marinos, seven had
no disclaimer language whatsoever.
Second, although Ocwen knew that the Marinos had
filed for bankruptcy protection and received a discharge,
thirteen of the fifteen letters with disclaimers spoke of
bankruptcy as a hypothetical possibility (e.g., “if you filed
for bankruptcy and your case is still active, or if you have
received an order of discharge, please be advised that this
is not an attempt to collect a prepetition or discharged
debt”). Ocwen makes no attempt to explain why it was

33a
proper for Ocwen to obscure the fact (known to Ocwen)
that the Marinos had already received a discharge.
Third, even the small number of letters that acknowledged (as Ocwen admittedly knew) that the Marinos had
obtained a discharge were internally contradictory. The
body of these letters asserts that the Marinos must pay
the debt, but the disclaimer placed at the end of the same
documents told them that they need not pay the debt.
This contradiction confused the Marinos and would likely
confuse many similarly situated debtors. Cf. In re Anderson, 348 B.R. 652, 661 (Bankr. D. Del. 2006) (finding a violation of the discharge injunction where the letter with
disclaimer language also stated confusingly that the debtors would be liable for any deficiency).
Fourth, Ocwen makes no effort to explain why it sent
admittedly “generic” notices to the Marinos. In this modern age of information technology, Ocwen could and
should prepare notices that are consistent with the known
legal status of its borrowers. Ocwen’s failure to do so
must reflect either incompetence (which we doubt) or a
deliberate effort to induce confused borrowers to pay discharged debts. Similarly, it was probably no accident that
the improper demands for payment appear near the beginning of each letter and the disclaimers appear near the
end.
Ocwen also argues that state or federal law required
it to send some of the correspondence. If it were true that
state or federal law required Ocwen to send all of the various letters as a condition to the preservation or enforcement of its lien rights, we might agree. But the premise
is not valid.

34a
First, Ocwen could not cite any law that authorized
some of its correspondence.
Second, some of the statutes and regulations cited by
Ocwen simply do not apply to its correspondence. For example, Ocwen cites 15 U.S.C. § 1692g(a) to excuse the
debt validation notices sent by Western Progressive (on
Ocwen’s behalf), but the Fair Debt Collection Practices
Act generally does not apply to mortgage foreclosures.
See Ho v. ReconTrust Co., NA, 858 F.3d 568, 572 (9th Cir.
2017) (“actions taken to facilitate a non-judicial foreclosure, such as sending the notice of default and notice of
sale, are not attempts to collect ‘debt’ as that term is defined by the FDCPA”).
Third, even when Ocwen sent legally required notices,
it routinely embellished those notices with demands for
payment that the applicable statutes and regulations do
not require. For example, 12 C.F.R. § 1024.37(c) requires
that a mortgage lender give notice of force-placed insurance; Ocwen added a demand for payment of the insurance premiums. Similarly, the escrow account notices not
only provided information as to account balances in accordance with 12 U.S.C. §§ 2605 and 2609, but also informed the Marinos that, if the they did not pay the shortage, their escrow shortfall would increase. Additionally,
the debt validation notices allegedly sent pursuant to 15
U.S.C. § 1692g provided information of the “total delinquency owed” and stated in large type that “WE ARE
ATTEMPTING TO COLLECT A DEBT[.]” As the
bankruptcy court aptly stated, Ocwen’s notices may have
been proper had they been limited to the required information mandated by the statutes and regulations; however, Ocwen invariably included a demand for payment
that the Marinos were not legally obligated to make.

35a
Ocwen’s inclusion of additional language not prescribed
by the relevant statutes or regulations violated the discharge injunction.
Ocwen cites California Civil Code §§ 2924(a)(1)(A),
2923.5(a)(2), and 2924.9, which require it to contact borrowers before and after filing a notice of default. These
notices were sent amidst the improper collection notices
that demanded payment, so it was not unreasonable for
the Marinos to believe that the letters were further attempts to collect on the debt. Cf. In re Nordlund, 494 B.R.
at 519 (“Taken together, and in context, the court construes the 24 letters as a deliberate attempt by [the bank]
to sow confusion and doubt as to whether it would recognize the debtors’ discharge. Its goal seems to have been
to convince the debtors to pay the bank despite their discharge.”).
In sum, the bankruptcy court did not clearly err in
finding that “Ocwen could not have been doing anything
but trying to get the debtor to give them some more
money . . . .” Ocwen’s repeated dunning deprived the Marinos of a fresh start “unhampered by the pressure and
discouragement of pre-existing debt.” See Local Loan
Co., 292 U.S. at 244.
b. The bankruptcy court properly considered the
telephone calls in its award of damages.
Ocwen also argues that the bankruptcy court should
not have considered the telephone calls that it made to the
Marinos, because (1) the issue of calls was not raised in
the Motion for Contempt, and (2) the evidence provided
on reconsideration shows that Ocwen made only thirty-

36a
five post-discharge calls, rather than the one hundred
calls found by the court. We reject both arguments. 10
Ocwen is correct that the Motion for Contempt focused exclusively on the written correspondence. However, Ocwen was on notice that the Marinos sought sanctions for violation of the discharge injunction; it should
reasonably have known that the trial could span all instances of improper contact with the Marinos. Indeed,
Ocwen’s representative, Sony Prudent, testified that he
had reviewed the contact logs, including telephone calls,
in preparation for trial.
Moreover, Ocwen never objected during trial to any
testimony regarding telephone calls. Thus, it waived any
such objection. Hansen v. Moore (In re Hansen), 368 B.R.
868, 875 (9th Cir. BAP 2007) (“A party who fails to object
to evidence at trial waives the right to raise admissibility
issues on appeal.” (citing Price v. Kramer, 200 F.3d 1237,
1251–52 (9th Cir. 2000))).
The Marinos introduced evidence at trial that Ocwen
repeatedly called them to request payment, even though
Ocwen does not argue on appeal that the court erred in finding that
the calls violated the discharge injunction. While we note that California state law requires the creditor to attempt to contact the debtor
concerning the default, see Cal. Civ. Code § 2923.5, the only evidence
in the record about the content of the phone calls is the Marinos’ and
Ms. O’Kane’s testimony about repeated demands for payment. There
is no evidence that the content of the calls complied with the state
statutes. Ocwen did not offer a script that it requires its staff to use
or any other evidence of what its staff said during the calls. Rather, it
appears that the calls simply and repeatedly demanded payment
post-discharge. Nor does it appear that a so-called “mini-Miranda
warning,” if given, would bring Ocwen’s telephone calls into compliance, inasmuch as the FDCPA generally does not apply to foreclosure
proceedings.
10

37a
they understandably could not offer a definite number of
calls. Mrs. Marino testified that Ocwen called three to five
times a day for a year; that she did not pick up all of
Ocwen’s calls because she did not want to be harassed;
that she may have answered twenty of the calls; and that
she may have received between sixty to one hundred
calls. Mr. Marino’s and Ms. O’Kane’s testimony also mentioned numerous calls. At trial, Ocwen did not produce
any evidence regarding the number of telephone calls,
other than to acknowledge that it made calls to the Marinos. The court’s finding that Ocwen called the Marinos
one hundred times was not clearly erroneous.
In its Motion for Reconsideration, Ocwen provided
the call log from the Marinos’ file that purported to show
that Ocwen only called the Marinos thirty-five times during the applicable period. But “‘a motion for reconsideration should not be granted, absent highly unusual circumstances, unless the district court is presented with newly
discovered evidence, committed clear error, or if there is
an intervening change in the controlling law.’ A [Civil]
Rule 59(e) motion may not be used to raise arguments or
present evidence for the first time when they could reasonably have been raised earlier in the litigation.” Kona
Enters., Inc. v. Estate of Bishop, 229 F.3d 877, 890 (9th
Cir. 2000) (quoting 389 Orange St. Partners v. Arnold, 179
F.3d 656, 665 (9th Cir. 1999)). The call logs were available
to Ocwen prior to trial and were referenced by Ocwen’s
witness; the bankruptcy court even expressed its displeasure that Ocwen did not introduce the call logs into
evidence but only relied on Mr. Prudent’s testimony
about their contents. The logs were not “newly discovered evidence” within the meaning of Civil Rule 59(e). See
Feature Realty, Inc. v. City of Spokane, 331 F.3d 1082,

38a
1093 (9th Cir. 2003) (“Evidence ‘in the possession of the
party before the judgment was rendered is not newly discovered.’” (citation omitted)).
There is another independently sufficient reason to
affirm. Ocwen failed to provide us with a transcript of the
hearing on the Motion for Reconsideration. See Clinton
v. Deutsche Bank Nat’l Tr. Co. (In re Clinton), 449 B.R.
79, 83 (9th Cir. BAP 2011) (“Without a transcript, it is impossible to determine why the bankruptcy court ruled as
it did. Therefore, we have little choice but to exercise our
discretion and summarily affirm the bankruptcy court’s
decision[.]”).
3. The damages were reasonable and supported by
the evidence.
Ocwen argues that the $119,000 award is not reasonable, because the award was arbitrary and the court ignored other causes of the Marinos’ emotional distress.
We disagree.
The Ninth Circuit has allowed emotional distress
damages for automatic stay violations when the debtor
“(1) suffer[s] significant harm, (2) clearly establish[es] the
significant harm, and (3) demonstrate[s] a causal connection between that significant harm and the violation of the
automatic stay (as distinct, for instance, from the anxiety
and pressures inherent in the bankruptcy process).”
Snowden v. Check Into Cash of Wash. Inc. (In re Snowden), 769 F.3d 651, 657 (9th Cir. 2014) (quoting Dawson v.
Wash. Mutual Bank, F.A. (In re Dawson), 390 F.3d 1139,
1149 (9th Cir. 2004)) (discussing violation of the automatic
stay). The same rule should apply to violations of the discharge injunction. See In re Nordlund, 494 B.R. at 523
(applying Dawson’s three-part test to violations of the

39a
discharge injunction); C & W Asset Acquisition, LLC v.
Feagins (In re Feagins), 439 B.R. 165, 178 (Bankr. D.
Haw. 2010) (“Although Dawson considered the remedy
for violations of the automatic stay under section
362(k)(1), the same reasoning applies to willful violations
of the discharge injunction.”).
Ocwen contends that the bankruptcy court’s award of
$1,000 per contact was arbitrary and that the total award
should not have exceeded “several thousand dollars” in
accordance with Dyer. But Ocwen ignores the fact that
the bankruptcy court awarded compensatory damages
for emotional distress, not punitive sanctions. The limit
on punitive sanctions discussed in Dyer 11 does not apply
to a compensatory award.
Ocwen also argues that the Marinos’ emotional distress predated the post-discharge communications and
was not caused by its violation of the discharge injunction.
But the Marinos and Ms. O’Kane testified that the Marinos’ health and relationship improved after they filed
for bankruptcy but deteriorated again when Ocwen began contacting them post-discharge. The bankruptcy
Ocwen cites In re Martinez, 561 B.R. 132, 173 (Bankr. D. Nev. 2016),
for the proposition that a “$1,000 per violation figure can be arbitrary
as it does not take into account the circumstances of the individual
victim, and therefore, would not compensate for the actual damages
suffered.” But the Martinez court also stated that “[a] $1,000 per violation figure can be too high in some cases, but too low in others. Repeated attempts by a creditor to collect a discharged debt may cause
little concern to an individual who is represented by effective bankruptcy counsel, but may be gut wrenching to a pro se debtor who
thought he had received a fresh start.” Id. at 173 n.47. In this case,
the bankruptcy court heard testimony from the Marinos about how
Ocwen’s violations affected them. The court’s award did “take into account the circumstances of” the Marinos.
11

40a
court weighed the evidence and determined that Ocwen’s
violation of the discharge injunction caused the Marinos’
injury. The court did not clearly err in assigning blame to
Ocwen.
B. The Marinos’ cross-appeal
The Marinos argue that the court erred by failing to
award punitive damages, because it erroneously believed
that it lacked authority to do so. The bankruptcy court
misstated the law.
While the Ninth Circuit has stated that the bankruptcy courts are prohibited from assessing any “serious”
punitive damages, it has left open the possibility of “relatively mild noncompensatory fines.” In re Dyer, 322 F.3d
at 1193. We have previously stated that, “[i]f a bankruptcy court finds that a party has willfully violated the
discharge injunction, the court may award actual damages, punitive damages and attorney’s fees to the
debtor.” In re Nash, 464 B.R. at 880 (citing Espinosa v.
United Student Aid Funds, Inc., 553 F.3d 1193, 1205 n.7
(9th Cir. 2008), aff’d, 559 U.S. 260 (2010)).
Ocwen concedes that the bankruptcy court may
award sanctions and that relatively mild noncompensatory fines may be permissible under some circumstances,
but it argues that the bankruptcy court may not award
punitive damages.
Some bankruptcy courts understand Dyer to mean
that a bankruptcy court may not allow “punitive damages” for a violation of the discharge injunction but may
award “relatively mild noncompensatory fines.” See, e.g.,
In re Martinez, 561 B.R. at 175 (“this court has no authority to award punitive damages for a violation of the Discharge Injunction, but it does have authority to award

41a
mildly [sic], non-compensatory fines in appropriate circumstances”); In re Dickerson, 510 B.R. 289, 298 (Bankr.
D. Idaho 2014) (“in general, punitive damages are not an
appropriate remedy for § 105(a) contempt proceedings,
[but] relatively mild noncompensatory fines may be acceptable in some circumstances”). Other courts have held
that a bankruptcy court may award “punitive damages,”
so long as the amount is “relatively mild.” See, e.g.,
Rosales v. Wallace (In re Wallace), BAP No. NV–11–
1681–KiPaD, 2012 WL 2401871, at *8 (9th Cir. BAP June
26, 2012) (recognizing that, under Dyer, “such punitive
sanctions cannot be ‘serious’”). We do not see any meaningful difference between “punitive damages” and “noncompensatory fines.” The Ninth Circuit has authorized
“noncompensatory fines,” which are simply punitive damages by another name. However labeled, any such award
must be “relatively mild.” 12
It was thus an error for the bankruptcy court to preclude itself from considering an award of punitive damages. We do not hold that the bankruptcy court must
award a fine or punitive damages, but we remand so that
the bankruptcy court can consider whether to do so.
Alternatively, the bankruptcy court might choose to
issue proposed findings and a recommended judgment on
punitive damages to the district court or refer the matter
to the district court for criminal contempt proceedings.
See, e.g., Exec. Benefits Ins. Agency v. Arkison, 134
12
The Ninth Circuit left open the question of what is a “serious” punitive sanction but implied that any fine above $5,000 (presumably in
1989 dollars) would be considered “serious.” In re Dyer, 322 F.3d at
1193 (citing F.J. Hanshaw Enters., Inc. v. Emerald River Dev., Inc.,
244 F.3d 1128, 1139 n.10 (9th Cir. 2001)).

42a
S. Ct. 2165, 2173 (2014) (When faced with “core” claims
that cannot be adjudicated by the bankruptcy court under
Stern v. Marshall, 564 U.S. 462 (2011), “[t]he bankruptcy
court should hear the proceeding and submit proposed
findings of fact and conclusions of law to the district court
for de novo review and entry of judgment.”); In re Dyer,
322 F.3d at 1194 n.17 (“We do not preclude the possibility
that a bankruptcy court could initiate criminal contempt
proceedings by referring alleged contempt to the district
court. Nor do we address whether the district court could
refer those proceedings back to the bankruptcy court if
the parties so consented.”). The restriction on the bankruptcy court’s power to grant punitive damages and punish contempt stems from the fact that bankruptcy judges
lack life tenure. District judges do not face that restriction. See In re Dyer, 322 F.3d at 1194.
CONCLUSION
For the foregoing reasons, the bankruptcy court did
not err in awarding the Marinos damages for Ocwen’s
willful violations of the discharge injunction but erred
when it held that it lacked the authority to award any punitive damages. We therefore AFFIRM IN PART and
VACATE and REMAND IN PART the Sanctions Order
and AFFIRM the Reconsideration Order.

43a
APPENDIX D
UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF NEVADA
CASE NO. BK-N-13-50461-BTB
In re: CHRISTOPHER MICHAEL MARINO and
VALERIE MARGARET MARINO,
Debtors.
Filed: July 5, 2016
ORDER REGARDING MOTION TO REOPEN
CHAPTER 7 UNDER 11 U.S.C. §350 AND F.R.B.P.
5010 AND HOLD CREDITOR, OCWEN LOAN
SERVICING LLC IN CONTEMPT AND FOR
SANCTIONS FOR VIOLATION OF THE
DISCHARGE INJUNCTION 11 U.S.C. §524(a)(2)
Before BRUCE T. BEESLEY, United States Bankruptcy Judge.
THIS MATTER having come before the Court on
Debtors’, CHRISTOPHER MICHAEL MARINO and
VALERIE MARGARET MARINO (“Debtors” or “Marinos”) Reopen Debtor’s Chapter 7 under 11 U.S.C. §350
and F.R.B.P. 5010 and to Hold Creditor, Ocwen Loan
Servicing, LLC (“Ocwen”) in Contempt and for Sanction
for its violation of the Discharge Injunction under 11
U.S.C. §524(a)(2) [Dkt. 27] filed by their counsel, Christopher P. Burke, Esq., (“Burke”), and Ocwen appearing
through its counsel, and the Court having read the pleadings, with good cause appearing therefore;

44a
IT IS THEREFORE THE ORDER OF THIS
COURT, that Marinos’ Motion for Contempt for Violation of the Discharge Injunction under 11 U.S.C. §524(a)
and Damages Against Creditor, Ocwen, is hereby
GRANTED as follows:
IT IS HEREBY ORDERED; Ocwen shall pay the
$260 reopening fee and $500 in gas as actual damages to
the Marinos;
IT IS FURTHER ORDERED; Ocwen shall pay
$1,000 per letter, for the 19 letters sent to the Marinos,
for a total of $19,000. In addition, Ocwen shall pay $1,000
for each of the 100 phone calls the Marinos received for a
total of $100,000, together totaling $119,000 for emotional
distress damages to the Marinos;
IT IS FURTHER ORDERED; that Christopher
Burke, Esq. shall file a fee application for attorney fees
and costs that Ocwen can object to if its chooses to, but
Ocwen will have to pay the amount of attorney fees the
Court approves;
IT IS SO ORDERED.

45a
APPENDIX E
UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF NEVADA
CASE NO. BK-N-13-50461-BTB
In re: CHRISTOPHER MICHAEL MARINO and
VALERIE MARGARET MARINO,
Debtors.
Filed: September 15, 2016
ORDER DENYING MOTION FOR
RECONSIDERATION OF ORDER REGARDING
MOTION TO REOPEN CHAPTER 7 UNDER 11
U.S.C. §350 AND F.R.B.P. 5010 AND HOLD
CREDITOR, OCWEN LOAN SERVICING, LLC, IN
CONTEMPT AND FOR SANCTIONS FOR
VIOLATION OF THE DISCHARGE INJUNCTION
11 U.S.C. §524(a)(2)
Before BRUCE T. BEESLEY, United States Bankruptcy Judge.
THIS MATTER having come before the Court on
creditor, Ocwen Loan Servicing, LLC (“Ocwen”) Motion
for Reconsideration of Order Regarding Motion to Reopen Chapter 7 Under 11 U.S.C. §350 and F.R.B.P. 5010
and Hold Creditor, Ocwen Loan Servicing LLC, in Contempt and for Sanctions for Violation of the Discharge
Injunction 11 U.S.C. §524(A)(2) [Dkt. 67], filed by its
counsel, Christopher Swift, Esq. of Wright, Finlay &
Zak, LLP, who appeared for Ocwen, and there being an

46a
opposition filed by Christopher and Valerie Marino,
(“Marino”) through their counsel, Christopher Burke,
Esq. (“Burke”), who appeared for the Marinos; and the
Court having read the pleadings, with good cause appearing therefore;
IT IS HEREBY ORDERED that Ocwen’s Motion
for Reconsideration of Order Regarding Motion to Reopen Chapter 7 Under 11 U.S.C. §350 and F.R.B.P. 5010
and Hold Creditor, Ocwen Loan Servicing LLC, in Contempt and for Sanctions for Violation of the Discharge
Injunction 11 U.S.C. §524(A)(2) [Dkt. 67] is DENIED.
IT IS SO ORDERED.

47a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 18-60040 and 18-60041
In re CHRISTOPHER MICHAEL MARINO;
VALERIE MARGARET MARINO,
Debtors,
------------CHRISTOPHER MICHAEL MARINO; VALERIE
MARGARET MARINO,
Appellants,
v.
OCWEN LOAN SERVICING, LLC,
Appellee.
Filed: April 27, 2020
Appeal from the United States Bankruptcy Appellate
Panel of the Ninth Circuit
Before WALLACE and MURGUIA, Circuit Judges,
and LASNIK, * District Judge.
ORDER
*
The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.

48a
The panel votes to deny the petition for rehearing.
Judge Murguia votes to deny the petition for rehearing
en banc and Judges Wallace and Lasnik so recommend.
The full court has been advised of the petition for rehearing and rehearing en banc and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are DENIED.

